September 29, 2000

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

TOM RANFT
DISTRICT MANAGER, ARKANSAS DISTRICT OFFICE

SUBJECT:	 Audit Report - Review of the Violence Prevention and Response Programs
          in the Arkansas District (Report Number LB-AR-00-010)

This report presents the results of our review of the violence prevention and response
programs in the Arkansas District (Project Number 99EA007ER000). This audit report
is one of a series of reports on violence prevention and response efforts within the
Postal Service.

The Arkansas District complied with the Threat Assessment Team Guide when reacting
to incidents of violence. The district also generally complied with the policies and
procedures in the Crisis Management Plan for Incidents of Violence in the Workplace.
However, the district did not fully implement required proactive strategies designed to
prevent violence from occurring as outlined in the Threat Assessment Team Guide. As
a result, required controls were not fully implemented to reduce the potential for
violence in the workplace. The vice president for the Southwest Area agreed that the
six areas reviewed by the Office of Inspector General (OIG) were important to the
success of the violence prevention and response programs. He did not agree, however,
that the district’s zero tolerance statement was not consistently enforced, and stated
that evidence provided by the cluster indicated that zero tolerance policies existed, were
communicated in a variety of means and was enforced. Both the Southwest Area vice
president and the district manager stated there were concerns regarding the OIG’s
interpretation of the Threat Assessment Team Guide and our interpretation of the data
we collected. They stated that according to the manager, Workplace Environment
Improvement, “While Threat Assessment Teams are unquestionably mandatory, every
detail of the guide is not.” The Arkansas District manager provided a copy of the
district’s planned actions to respond to each of the six OIG recommendations.

Although the Southwest Area vice president and Arkansas District manager did not
agree with one of our findings, and our interpretation of the Threat Assessment Team
Guide, we believe that the district’s planned or implemented actions are responsive and
address the issues identified in this report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joyce Hansen,
director, Labor Management (Rosslyn), or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: 	Patrick R. Donahoe
     Yvonne D. Maguire
     Anthony J. Vegliante
     John R. Gunnels
Review of the Violence Prevention                                      LB-AR-00-010
 and Response Programs in the Arkansas District


                                  TABLE OF CONTENTS

Executive Summary                                                          i

Part I
   Introduction                                                           1

       Background                                                         1
       Objective, Scope, and Methodology                                  1

Part II
   Audit Results                                                          4

       Implementation of Violence Prevention and Response Programs         4
       Recommendations                                                    15
       Management’s Comments                                              15
       Evaluation of Management’s Comments                                16

   Appendix A.	 Statistical Sampling and Projections for Physical         18
                Security Reviews and the Existence of Crisis
                Management Plans For FY 1997 and 1998

   Appendix B.	 Statistical Sampling and Projections for Employees        20
                Trained in Workplace Violence Awareness from June 1,
                1997, to December 31, 1998

   Appendix C.	 Sample of Crisis Management Plans On Site and             23
                Physical Security Reviews Conducted at Arkansas
                District Facilities for FY 1997 and 1998

   Appendix D.	 Management’s Comments                                     26




                                        Restricted Information
Review of the Violence Prevention                                                LB-AR-00-010
 and Response Programs in the Arkansas District


                                  EXECUTIVE SUMMARY
Introduction 	               This report present the results of our audit on violence
                             prevention and response efforts within the Arkansas District,
                             located in the Southwest Area. The vice president of
                             Human Resources recommended this district for our review
                             because the Postal Service believed it had one of the better
                             violence prevention and response programs in the nation.

                             Our objective was to determine whether the Arkansas
                             District implemented Postal Service policies regarding
                             violence prevention and response programs.

Results in Brief	            The Arkansas District complied with the Threat Assessment
                             Team Guide when reacting to incidents of violence. The
                             district:

                             •	 Established its Threat Assessment Team in September
                                1995-two years prior to the Postal Service’s issuance of
                                violence prevention criteria.

                             •	 Conducted the two-day threat assessment team
                                orientation training in October 1998.

                             •	 Expanded the team’s core membership to include
                                eight inquiry threat assessment teams, comprised of
                                union and management personnel in January 1999.

                             •	 Established a process with the Postal Inspection Service
                                for referring threats and assaults to the Threat
                                Assessment Team in January 1999.

                             The district also generally complied with the policies and
                             procedures outlined in the Crisis Management Plan for
                             Incidents of Violence in the Workplace. We project that
                             91 percent of the district facilities had plans on site.

                             However, the district did not fully implement required
                             proactive strategies designed to prevent violence from
                             occurring, as required by the Threat Assessment Team
                             Guide. The district did not follow many of the policies and
                             procedures because it believed the Threat Assessment
                             Team Guide was not mandatory. As a result, required
                             controls were not fully implemented to reduce the potential




                                                   i
                                        Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District


                             for violence in the workplace. Our audit disclosed the
                             Arkansas District did not:

                             •   Consistently enforce a zero tolerance policy.
                             •   Conduct annual physical security reviews.
                             •   Monitor and evaluate climate indicators.
                             •   Engage in case management.
                             •   Measure team performance.
                             •   Mandate violence awareness training.

Summary of                   We recommend the vice president, Southwest Area
Recommendations              Operations, and the Arkansas District manager implement
                             controls to (1) enforce the zero tolerance policy, (2) ensure
                             annual physical security reviews are conducted,
                             (3) evaluate climate indicators, (4) follow up on risk
                             abatement plans, (5) establish threat assessment team
                             performance measures, and (6) ensure all employees
                             attend violence awareness training.

Summary of                   The vice president for the Southwest Area agreed that the
Management’s                 six areas reviewed by the Office of Inspector General (OIG)
Comments                     were important to the success of the violence prevention
                             and response programs. He did not agree, however, that
                             the district’s zero tolerance statement was not consistently
                             enforced, and stated that evidence provided by the cluster
                             indicates that zero tolerance policies exist, are
                             communicated in a variety of means and are enforced. The
                             district manager responded that the report addressed
                             deficiencies of the threat assessment team to “appropriately
                             document their follow up procedures rather than
                             enforcement” of the district’s policy of zero tolerance.

                             Both the Southwest Area vice president and the district
                             manager stated there were concerns regarding the
                             interpretation of the Threat Assessment Team Guide and
                             the data collected by the OIG. They stated that according to
                             the manager, Workplace Environment Improvement, “While
                             Threat Assessment Teams are unquestionably mandatory,
                             every detail of the guide is not.”

                             The Arkansas District manager provided a copy of the
                             district’s planned actions to respond to each of the six OIG
                             recommendations.




                                                   ii
                                        Restricted Information
Review of the Violence Prevention                                               LB-AR-00-010
 and Response Programs in the Arkansas District




                             We have summarized management’s comments, which are
                             included in their entirety in Appendix D of this report.

Summary Evaluation           We do not agree with management that the district’s zero
of Management                tolerance statement was consistently enforced and that the
Comments                     report addressed deficiencies in the documentation of follow
                             up procedures and not enforcement of the district’s policy of
                             zero tolerance. While documentation was not complete, in
                             the cases we reviewed, no follow up had occurred.

                             Regarding the differences in interpretation of the Threat
                             Assessment Team Guide, we viewed the publication as
                             mandatory based on the importance of the guidance it
                             provides, particularly in the areas of violence prevention.
                             The deficiencies we noted were not a result of the district
                             having implemented something different than that
                             recommended by the guide, but rather the district not
                             implementing, or fully implementing, what we believed were
                             key elements of the guide.

                             Although the Southwest Area vice president and Arkansas
                             District manager did not agree with one of our findings, and
                             our interpretation of the Postal Service guidance, we believe
                             that the district’s planned or implemented actions are
                             responsive and address the issues identified in this report.




                                                  iii
                                        Restricted Information
Review of the Violence Prevention                                                              LB-AR-00-010
 and Response Programs in the Arkansas District


                                              INTRODUCTION
Background                          The Postal Service recognizes the importance of ensuring
                                    the safety of its employees by creating and maintaining a
                                    work environment that is violence-free. This concept
                                    emphasizes using a viable workplace violence prevention
                                    program as a first step in helping to ensure a violence-free
                                    workplace. An effective program depends on a universal
                                    zero tolerance policy and a zero tolerance action plan that is
                                    consistently implemented for the management of threats,
                                    assaults, and other inappropriate workplace behavior.

                                    The Postal Service established several initiatives and
                                    strategies to prevent and minimize the potential risk for
                                    violence in the workplace:

                                    •	 The Joint Statement on Violence and Behavior in the
                                       Workplace states the Postal Service’s position that
                                       violent and inappropriate behavior will not be tolerated
                                       by anyone at any level of the Postal Service.

                                    •	 The Threat Assessment Team Guide, Publication 108,
                                       and the Crisis Management Plan for Incidents of
                                       Violence in the Workplace, Publication 107,1 require
                                       districts to develop appropriate threat assessment and
                                       crisis management teams, and team plans of operation.

                                    •	 The Administrative Support Manual requires security
                                       control officers or their designees to conduct annual
                                       physical security reviews.

Objective, Scope, and               Our objective was to determine whether the Arkansas
Methodology                         District implemented Postal Service policies regarding
                                    violence prevention and response programs.

                                    We reviewed applicable laws, policies, procedures, climate
                                    assessments, and other documents, such as the Postal
                                    Inspection Service’s Assault and Threats Incident Reports
                                    and Investigative Worksheets. We also reviewed United
                                    States General Accounting Office (GAO) reports related to
                                    labor-management issues.



1
    The Crisis Management Plan for Incidents of Violence in the Workplace is under revision.



                                                           1
                                                Restricted Information
Review of the Violence Prevention                                                                      LB-AR-00-010
 and Response Programs in the Arkansas District


                                  We interviewed Postal Service officials in the Arkansas
                                  District, Southwest Area, and headquarters to obtain
                                  information about the Postal Service workplace
                                  environment, and the procedures and policies implemented
                                  to ensure a safe and violence-free workplace.

                                  To determine the district’s compliance with policies and
                                  procedures, we reviewed the district’s Threat Assessment
                                  Team activities, zero tolerance policy, and crisis
                                  management plan. We compared the activities, policies,
                                  and plans to the Postal Service requirements for violence
                                  prevention and response strategies. We also reviewed the
                                  district’s initiatives for addressing workplace environmental
                                  climate issues, including training programs on violence
                                  prevention and response.

                                  We reviewed indicators listed in the Threat Assessment
                                  Team Guide that may help the Threat Assessment Team to
                                  develop preventive measures to moderate risk and liability.
                                  Those indicators were the number of employee grievances,
                                  Equal Employment Opportunity complaints, and Employee
                                  Assistance Program cases for all districts in the Southwest
                                  Area including the Arkansas District for the period June 1,
                                  1997, through December 31, 1998.2 For the same period,
                                  we reviewed the workplace climate assessments for the
                                  Arkansas District. We also reviewed results from the 1998
                                  and 1999 Voice of Employee surveys conducted in the
                                  Arkansas District. We reviewed this data as indicators of
                                  conflict that could lead to violence in the Arkansas District.
                                  We compared some of the indicators in the Arkansas
                                  District to the same indicators in other districts within the
                                  Southwest Area.3

                                  For fiscal years (FY) 1997 and 1998, we projected the
                                  number of facilities where the district officials conducted
                                  annual physical security reviews, and if crisis management
                                  plans were on site. We used statistical sampling
                                  methodologies to determine these numbers. (See
                                  Appendix A.)

                                  For the period June 1, 1997, through December 31, 1998,
                                  we projected the number of craft employees, managers, and

2
  The Office of Inspector General selected this audit period because the Postal Service first published the Threat
Assessment Team Guide and Crisis Management Plan for Incidents of Violence in the Workplace in May 1997.
3
  We obtained this data from the Postal Service’s databases but did not verify the accuracy of the data.



                                                          2
                                               Restricted Information
Review of the Violence Prevention                                              LB-AR-00-010
 and Response Programs in the Arkansas District


                             supervisors who received the required number of hours of
                             workplace violence awareness training. We also used
                             statistical sampling methodologies to determine these
                             numbers. (See Appendix B.)

                             We conducted this audit from May 1999 through
                             September 2000, in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls, as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.




                                                   3
                                        Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District


                                      AUDIT RESULTS
Implementation of            The Arkansas District complied with the Threat Assessment
Violence Prevention          Team Guide when reacting to incidents of violence. The
and Response                 district:
Programs
                             •	 Established its Threat Assessment Team in
                                September 1995-two years prior to the issuance of
                                violence prevention criteria.

                             •	 Conducted the two-day threat assessment team
                                orientation training in October 1998.

                             •	 Expanded the team’s core membership to include
                                eight inquiry threat assessment teams, comprised of
                                union and management personnel in January 1999.

                             •	 Established a process with the Postal Inspection Service
                                for referring threats and assaults to the Threat
                                Assessment Team in January 1999.

                             The district also generally complied with the policies and
                             procedures outlined in the Crisis Management Plan for
                             Incidents of Violence in the Workplace. We project that
                             91 percent of the district facilities had plans on site.

                             However, the district did not fully implement required
                             proactive strategies designed to prevent violence from
                             occurring, as required by the Threat Assessment Team
                             Guide. The district did not follow many of the policies and
                             procedures because it believed the Threat Assessment
                             Team Guide was not mandatory. As a result, required
                             controls were not fully implemented to reduce the potential
                             for violence in the workplace. Our audit disclosed the
                             Arkansas District did not:

                             •	   Consistently enforce a zero tolerance policy.
                             •	   Conduct annual physical security reviews.
                             •	   Monitor and evaluate indicators.
                             •	   Engage in case management.
                             •	   Measure team performance.
                             •	   Mandate violence awareness training.




                                                   4
                                        Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District



Zero Tolerance Policy	       We found that the Arkansas District had a zero tolerance
                             policy statement that was clear and concise, but it was not
                             consistently enforced. The district’s Threat Assessment
                             Team did not consistently enforce the policy because it
                             believed the Threat Assessment Team Guide, which
                             implements the Postal Service, Joint Statement on Violence
                             and Behavior in the Workplace, was not a mandatory
                             requirement. Inconsistent enforcement could increase the
                             risk of an unsafe workplace environment.

                             The Threat Assessment Team Guide states that zero
                             tolerance means each and every act or threat of violence,
                             regardless of the initiator, will elicit an immediate and firm
                             response, which could involve discipline up to and including
                             removal.

                             The Threat Assessment Team did not enforce the zero
                             tolerance policy for the 17 documented threats that occurred
                             from June 1, 1997, through December 31, 1998. For
                             example, in one incident two employees disagreed over
                             seating arrangements. The disagreement escalated and
                             resulted in inappropriate behavior by the employees, and
                             included an allegation that one of the employees had a gun
                             in her vehicle. The Threat Assessment Team investigated
                             and found that both employees acted inappropriately. The
                             team members recommended that the employees needed
                             counseling.

                             As part of the risk abatement plan, the postmaster
                             counseled both employees and placed them on notice that
                             their behavior would not be tolerated. In addition, the team
                             recommended referral of both employees to the Employee
                             Assistance Program and that the postmaster conduct
                             safety, stand-up talks on workplace violence. Finally, the
                             team recommended that facilities display posters to
                             communicate postal policies on guns and sexual
                             harassment.

                             However, according to the employee and workplace
                             intervention analyst and contrary to requirements of the
                             Threat Assessment Team Guide, the team did not monitor
                             and follow up with the postmaster to ensure implementation
                             of its recommendations. Our review disclosed no evidence




                                                   5
                                        Restricted Information
Review of the Violence Prevention                                                                         LB-AR-00-010
 and Response Programs in the Arkansas District


                                   that the postmaster acted upon the team’s
                                   recommendations.

                                   In a second incident, an employee reported that another
                                   employee physically threatened him. In addition, other
                                   employees complained that they worked in an unhealthy
                                   work environment. The Threat Assessment Team
                                   recommended a climate survey, and that the postmaster
                                   prepare an action plan to resolve the issues identified.
                                   However, the climate survey and the action plan were never
                                   accomplished.

                                   The district needs to ensure that managers enforce the zero
                                   tolerance policy by consistently applying it and holding
                                   employees accountable for their actions, as required by the
                                   Threat Assessment Team Guide.


Physical Security	                 The district did not conduct annual physical security reviews
Reviews 	                          in all facilities as mandated by the Postal Service
                                   Administrative Support Manual. The physical security
                                   reviews were not conducted because district officials were
                                   not aware of their responsibility for conducting the reviews.

                                   The Postal Service Administrative Support Manual
                                   (Chapter 2, Section 27) requires the security control officer
                                   or designee to conduct annual physical security surveys at
                                   all Postal Service facilities to ensure that the appropriate
                                   attention is given to security issues.4

                                   We used a statistical projection to determine if district
                                   facilities had conducted physical security reviews for the
                                   634 facilities. We projected that the Arkansas District
                                   conducted no more than 171 (27 percent) of the 634
                                   required annual physical security reviews in FY 1997. In
                                   FY 1998, no more than 406 (64 percent) of the 634 facilities
                                   were reviewed. (See Appendix A.)

                                   The lack of physical security reviews at Postal Service
                                   facilities may increase the risk of workplace violence or the
                                   loss or destruction of Postal Service property and the mail.



4
  The chief postal inspector is designated as the security officer for the Postal Service. The security control officers
located at each postal facility liaison with the Inspection Service on all security matters.



                                                           6
                                                Restricted Information
Review of the Violence Prevention                                                                   LB-AR-00-010
 and Response Programs in the Arkansas District



Indicators to Develop            We found that the district did not monitor and evaluate
Preventive Measures              indicators, because they believed the requirement in the
                                 Threat Assessment Team Guide was not mandatory.
                                 Therefore, the district did not identify and follow up on
                                 events that could escalate the potential for violence. As a
                                 result, controls associated with identifying and assessing
                                 indicators were not used to reduce the potential for violence
                                 in the workplace.

                                 The guide outlines several indicators that are relevant for
                                 review, when making such determinations. Among those
                                 indicators are grievances, Equal Employment Opportunity
                                 complaints, referrals to Employee Assistance Program
                                 contacts, labor-management relationships,5 and climate
                                 assessments.

                                 We reviewed several indicators that management could use
                                 as benchmarks to assess the workplace climate.

                                 Grievances. Exhibit 1 shows that the Arkansas District had
                                 one of the highest ratios (26:100) in the Southwest Area of
                                 step 3 grievance appeals to employees, for the period
                                 June 1, 1997, through December 31, 1998.6




5
  We considered the results of the Voice of the Employee surveys as an indicator of labor-management relationships.
6
  In a report entitled “U.S. Postal Service: Little Progress Made in Addressing Persistent Labor-Management
Problems,” October 1997, GAO/GGD-98-1, GAO reported that a ratio of 13:100 grievances to employees was a high
ratio. Union and management officials did not dispute this claim.



                                                        7
                                             Restricted Information
Review of the Violence Prevention                                                LB-AR-00-010
 and Response Programs in the Arkansas District



                             For the same period, Exhibit 2 shows that the district had
                             the highest ratio (24:100) of step 3 contract-related
                             grievance appeals to employees.




                             The district had a middle range ratio (3:100) of step 3
                             discipline-related grievance appeals to employees for the
                             same period, as shown in Exhibit 3.




                                                   8
                                        Restricted Information
Review of the Violence Prevention                                                                   LB-AR-00-010
 and Response Programs in the Arkansas District



                                 Equal Employment Opportunity Complaints. For the
                                 same period, Exhibit 4 shows that the district had the most
                                 favorable ratio (1:55) of Equal Employment Opportunity
                                 complaints to employees.




                                 Employee Assistance Program Activity. For the same
                                 period, Exhibit 5 shows that the district had the third lowest
                                 ratio (1:13) of total pre-case activity7 Employee Assistance
                                 Program cases per employee.




7
 The total pre-case activity contacts included all employees, family members, or supervisors who contacted with the
Employee Assistance Program, either by telephone or in person, to set up appointments with an Employee
Assistance Program counselor.



                                                        9
                                             Restricted Information
Review of the Violence Prevention                                                                    LB-AR-00-010
 and Response Programs in the Arkansas District



                                 Voice of Employee Survey. A majority of the employees
                                 who responded to the Voice of Employee8 survey in the
                                 Arkansas District were satisfied with their work environment.
                                 As shown in Exhibits 6 and 7, the number of employees
                                 who responded favorably to their workplace environment
                                 ranged from 53 percent in Quarter 4 of 1998 to about
                                 58 percent in Quarters 1, 2 and 3 of 1999. We noted that
                                 about 24 percent of the employees who responded to the
                                 survey for Quarter 4 of 1998, and about 21 to 23 percent of
                                 the employees who responded to the survey in Quarters 1,
                                 2, and 3 of 1999, provided unfavorable responses regarding
                                 their workplace environment. In addition, about 20 percent
                                 of the employees who responded for the same quarters
                                 remained neutral.




8
 The Voice of Employee survey is a data collection instrument that the Postal Service established to help improve
workplace relationships and ensure that all employees are treated fairly, feel safe in their workplace, have
opportunities to participate, and take pride in being postal employees.



                                                       10
                                             Restricted Information
Review of the Violence Prevention                                               LB-AR-00-010
 and Response Programs in the Arkansas District




                             While these indicators cannot be used as the sole basis for
                             reaching conclusions concerning the district’s workplace
                             environment, the Threat Assessment Team can use them to
                             assess the potential for violence in the district.

                             Climate Assessments. The district conducted four climate
                             assessments during our audit period, but none of the
                             climate assessments were a result of the district’s
                             evaluation of indicators. Rather, the employee and
                             workplace intervention analyst conducted the climate
                             assessments in response to requests from union officials,
                             district management, and as follow up to previous work
                             climate issues and other problems reported to her by
                             Employee Assistance Program counselors. Routine
                             analysis of indicators may have identified the need for
                             climate assessments before problems occurred.

                             For example, a work climate assessment conducted in
                             April 1997 at a district post office disclosed that the
                             workplace lacked effective communication and positive
                             interactions between management and employees.

                             A work climate assessment conducted in November 1997 at
                             another post office disclosed that there were significant
                             issues with the kind of communication that was occurring
                             between the supervisor and employees.



                                                  11
                                        Restricted Information
Review of the Violence Prevention                                                                          LB-AR-00-010
 and Response Programs in the Arkansas District


                                   The issues reflected the supervisor’s inappropriate tone and
                                   manner of communication.

                                   The district should improve its process for evaluating the
                                   workplace climate by proactively identifying sites or
                                   situations that have the potential for violence. Reviewing
                                   the indicators on a periodic basis can provide valuable
                                   information about conflict in district facilities.

                                   We were told about a proactive initiative that the district took
                                   to improve labor-management relations. According to the
                                   district senior Labor Relations specialist, the district
                                   participated in mediation to help reduce the backlog of
                                   grievance cases. This process is an expedited system for
                                   settling American Postal Workers Union grievances. The
                                   Southeast and Southwest Areas trained about eight people
                                   in mediation. The panel team in this instance included one
                                   American Postal Workers Union representative, one
                                   management official from the Arkansas District, and one
                                   management person outside of the district.

Case Management 	                  The Threat Assessment Team did not completely manage
                                   all threats or follow up on risk abatement plans developed in
                                   response to identified threats, as required by the Threat
                                   Assessment Team Guide. A district that does not fully
                                   identify and investigate all threats and follow up on risk
                                   abatement plans could contribute to an unsafe workplace
                                   for employees.

                                   The Threat Assessment Team Guide requires the Threat
                                   Assessment Team to engage in case management of
                                   threats, including developing a risk abatement plan and
                                   engaging in follow up. We found that the team engaged in
                                   some case management by assessing the level of risk
                                   priority9 and developing risk abatement plans for all
                                   17 threats on their list. However, the team did not follow up
                                   on the implementation and results of the risk abatement
                                   plans. According to the employee and workplace
                                   intervention analyst, the team needed to improve its case
                                   management activities. She stated that the team did not

9
  Priority 1 (extreme risk) means a clear and immediate threat of violence to an identifiable target or targets. Priority 2
(high risk) means a threat of violence, usually to an identifiable target, but currently lacking immediacy and/or a
specific plan, or a specified plan of violence, but currently lacking a specific target. Priority 3 (low or moderate risk)
means a relatively nonspecific threat of violence from a person expressing concerns with personal and/or
organizational issues. Priority 4 (no risk) means no threat of violence indicated.



                                                          12
                                                Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District


                             fully engage in case management because they believed it
                             was not a requirement.

Measurement of Threat The district’s Threat Assessment Team did not establish
Assessment Team       performance measures as required by the Threat
Performance           Assessment Team Guide because the employee and
                      workplace intervention analyst did not consider it
                      mandatory. Without performance measures, the team could
                      not objectively measure the effect violence prevention
                      activities had on the workplace climate and operations.

                             Performance measures help reduce the risk of violence in
                             the workplace because they provide objective information to
                             management on baseline performance and measure the
                             effect of the violence prevention program. Objective data is
                             available such as surveys, the number and types of threats
                             and assaults, the tracking system, and post-incident
                             analysis of each violent incident.

Violence Awareness           The district did not provide workplace violence awareness
Training                     training for district managers, supervisors, and craft
                             employees in accordance with the Threat Assessment
                             Team Guide because the district did not consider the
                             training as mandatory. Employees who have not received
                             violence awareness training may not be effective in
                             preventing violence in the workplace.

                             The Threat Assessment Team Guide states that every
                             Postal Service manager and supervisor should complete
                             eight hours of workplace violence awareness program
                             training and four hours of follow-up training. Training topics
                             should include defusing a difficult situation and providing
                             effective supervision. In September 1998, Postal Service
                             management mandated violence awareness training for all
                             craft employees, supervisors, and managers.

                             The Arkansas District’s workplace violence awareness
                             training consisted of:

                             •	 An eight-hour workplace violence awareness training
                                course primarily for managers and supervisors.

                             •	 A one-hour workplace violence training course provided
                                to craft employees at the Little Rock Processing and
                                Distribution Center.



                                                  13
                                        Restricted Information
Review of the Violence Prevention                                                                         LB-AR-00-010
 and Response Programs in the Arkansas District



                                     •	 An introduction to workplace violence awareness for new
                                        employees.10

                                     •	 “Stand-up” sessions on a recurring basis for all
                                        employees at the district’s facilities.

                                     We used a statistical projection to determine if employees
                                     had attended violence awareness training for the 1,144
                                     managers and supervisors and the 5,550 craft employees.
                                     We projected that at least 271 (24 percent) of the 1,144
                                     managers and supervisors did not receive any workplace
                                     violence training. No more than 345 (30 percent) of the
                                     1,144 managers and supervisors received both the eight-
                                     hour workplace violence awareness training course and the
                                     four-hours of follow-up. During the same period, no more
                                     than 591 (52 percent) of the 1144 managers and
                                     supervisors attended some violence awareness training
                                     ranging from 3 hours to 18 hours but not including the
                                     required 12 hours. (See Appendix B.)

                                     The district developed a one-hour violence awareness
                                     training course for craft employees; however, the course
                                     had only been offered at the Little Rock Processing and
                                     Distribution Center. In that regard, we determined that
                                     4,148 (75 percent) of the 5,550 craft employees in the
                                     Arkansas District did not have an opportunity to receive the
                                     one-hour training course. In addition, we projected that at
                                     least 986 (70 percent) of the 1,402 craft employees at the
                                     Little Rock Processing and Distribution Center did not
                                     receive the one-hour training course during our audit period.
                                     (See Appendix B.)

                                     The senior training specialist told us that craft employees
                                     located in Arkansas facilities received some training during
                                     stand-up talks. However, he could not provide training
                                     records to support who attended the stand-up talks and
                                     when they occurred. We questioned the number of
                                     employees at district facilities who attended violence
                                     awareness training and according to the employee and
                                     workplace intervention analyst, the district provided limited



10
     We did not verify attendance at the orientations because it was not within the scope of our audit.



                                                           14
                                                 Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District



                             workplace violence awareness training because they did not
                             receive a mandate from Postal Service Headquarters
                             requiring further training.

                             The Postal Service has recognized violence awareness
                             training for supervisors, managers, and craft employees is a
                             vital component to preventing violence in the workplace.
                             This training is mandatory because employees need
                             effective tools to recognize the warning signs of violence
                             and possibly defuse difficult situations.

Recommendations              We recommend the vice president, Southwest Area
                             Operations, and Arkansas District manager implement
                             controls to improve the effectiveness of the Arkansas
                             District’s violence prevention program. Specifically:

                             1. Enforce the Postal Service zero tolerance policy.

                             2. Conduct annual physical security reviews at all district
                                facilities.

                             3. Monitor and evaluate indicators to identify conflict that
                                could lead to violence in the workplace.

                             4. Follow up to ensure that risk abatement plans are
                                implemented.

                             5. Establish performance measures to gauge team
                                performance.

                             6. Mandate attendance at violence awareness training for
                                all craft employees, supervisors, and managers.

Management’s                 The vice president for the Southwest Area agreed that the
Comments                     six areas reviewed by the OIG were important to the
                             success of the violence prevention and response programs.
                             He did not agree, however, that the district’s zero tolerance
                             statement was not enforced, and stated that evidence
                             provided by the cluster indicates that zero tolerance policies
                             exist, are communicated in a variety of means and are
                             enforced. The district manager responded that the report
                             addressed deficiencies of the threat assessment team to
                             “appropriately document their follow-up procedures




                                                  15
                                        Restricted Information
Review of the Violence Prevention                                                 LB-AR-00-010
 and Response Programs in the Arkansas District



                             rather than enforcement” of the district’s policy of zero
                             tolerance.

                             Both the Southwest Area vice president and the district
                             manager stated there were concerns regarding the
                             interpretation of the Threat Assessment Team Guide and
                             the data collected by the OIG. They stated that according to
                             the manager, Workplace Environment Improvement, “while
                             Threat Assessment Teams are unquestionably mandatory,
                             every detail of the guide is not.”

                             The Arkansas District manager provided the district’s
                             planned actions to respond to each of the six OIG
                             recommendations.

                             The district manager stated that the cluster developed and
                             will implement in FY2001, additional instructions for
                             managers and supervisors for handling workplace incidents.
                             Additionally, he provided that the district had achieved an
                             86 percent compliance rate for security reviews in FY 1999,
                             with all facilities completing the survey in FY 2000. Further,
                             the cluster is currently developing a program to monitor
                             offices with excessive problems in numerous climate
                             indicators, and providing continuous case management
                             through resolution using the cluster’s action steps for threats
                             and assaults. Finally, the cluster is developing and
                             implementing several procedures to monitor the threat
                             assessment team performance, and providing training in
                             FY 2000 and 2001 to managers, supervisors and craft
                             employees.

                             We have summarized management’s responses in the
                             report and included the full text of the comments in
                             Appendix D.

Evaluation of                We do not agree with management that the district’s zero
Management’s                 tolerance statement was consistently enforced and that the
Comments                     report addressed deficiencies in the documentation of
                             follow-up procedures and not enforcement of the district’s
                             policy of zero tolerance. While documentation was not
                             complete, in the cases we reviewed, no follow-up had
                             occurred.




                                                  16
                                        Restricted Information
Review of the Violence Prevention                                               LB-AR-00-010
 and Response Programs in the Arkansas District



                             Regarding the differences in interpretation of the Threat
                             Assessment Team Guide, we viewed the publication as
                             mandatory based on the importance of the guidance it
                             provides, particularly in the areas of violence prevention.
                             The deficiencies we noted were not a result of the district
                             having implemented something different than that
                             recommended by the guide, but rather the district not
                             implementing, or fully implementing, what we believed were
                             key elements of the guide.

                             Although the Southwest Area vice president and Arkansas
                             District manager did not agree with one of our findings, and
                             our interpretation of the Threat Assessment Team Guide,
                             we believe that the district’s planned or implemented actions
                             are responsive and address the issues identified in this
                             report.




                                                  17
                                        Restricted Information
Review of the Violence Prevention                                                LB-AR-00-010
 and Response Programs in the Arkansas District


                         APPENDIX A
     STATISTICAL SAMPLING AND PROJECTIONS FOR PHYSICAL
        SECURITY REVIEWS AND THE EXISTENCE OF CRISIS
           MANAGEMENT PLANSFOR FY 1997 AND 1998

Purpose of the Sampling

One of the objectives of this audit was to assess Arkansas District implementation of
Postal Service policy regarding physical security reviews and crisis management plans.
In support of this objective, the audit team employed a simple random attribute sample
design that allows statistical projection of responses from individual facilities within the
Arkansas District.

Definition of the Audit Universe

The audit universe consisted of 634 facilities, specifically, processing and distribution
centers, post offices, stations, branches, and postal stores. The Arkansas District
management was the source of the universe data.

Sample Design and Modifications

The audit used a simple random sample design. Ninety (90) facilities were randomly
selected for review, to provide a one-sided 95 percent confidence interval with an
8 percent precision, based on auditor expectations of approximately a 50 percent level
of compliance on some attributes. Appendix C is a list of the 90 facilities that were
randomly selected to determine which facilities had physical security reviews conducted
on them, and had crisis management plans on hand.

Statistical Projections of the Sample Data

All attributes are projected to the universe of 634 facilities. No differences in universe
were provided for FY 1997 versus FY 1998 data.

Attribute 1: Physical Security Reviews Conducted in FY 1997.

Based on a projection of the sample results, we are 95 percent confident that no more
than 27 percent (171 facilities) of the Arkansas District facilities conducted a physical
security review in FY 1997. The unbiased point estimate is 20 percent, or 127 facilities.

Attribute 2: Physical Security Reviews Conducted in FY 1998.

Based on a projection of the sample results, we are 95 percent confident that no more
than 64 percent (406 facilities) of the Arkansas District facilities conducted a physical
security review in FY 1998. The unbiased point estimate is 56 percent (352 facilities).



                                                  18
                                        Restricted Information
Review of the Violence Prevention                                              LB-AR-00-010
 and Response Programs in the Arkansas District



Attribute 3: Crisis Management Plan on site.

Based on a projection of the sample results, we are 95 percent confident that at least
91 percent of the Arkansas District facilities had a copy of the district crisis management
plan on site. The unbiased point estimate is 95 percent (602 facilities).




                                                  19
                                        Restricted Information
Review of the Violence Prevention                                             LB-AR-00-010
 and Response Programs in the Arkansas District


                          APPENDIX B
    STATISTICAL SAMPLING AND PROJECTIONS FOR EMPLOYEES
         TRAINED IN WORKPLACE VIOLENCE AWARENESS
            FROM JUNE 1, 1997 TO DECEMBER 31, 1998

Purpose of the Sampling

One of the objectives of this audit was to assess Arkansas District implementation of
Postal Service policy to train supervisors/managers and craft employees in conflict
resolution and workplace violence awareness. In support of this objective, the audit
team conducted two statistical samples. A simple random attribute sample design was
used to project the training of craft employees in the Little Rock Processing and
Distribution Center. A stratified two-stage cluster sample design was used for the
assessment of supervisory-level training throughout the Arkansas District.

Definition of the Audit Universe

For the craft employee assessment, the audit team determined that only the Little Rock
Processing and Distribution Center employees had received training in the violence
awareness area. The universe that was sampled, therefore, consists of only the 1,402
craft employees at that single facility. No projection is made to the remaining 4,148
craft employees in the Arkansas District.

For the supervisory-level assessment, the audit universe is a total of 1,144 supervisors
and managers at 634 facilities in the Arkansas District.

The Arkansas District management was the source of all universe data.

Sample Design and Modifications

For the craft employee assessment, the audit used a simple random sample design.
Training records for 100 randomly-selected employees were to be reviewed, to provide
a one-sided 95 percent confidence interval with an 8 percent precision, based on
auditor expectations of approximately a 50 percent level of compliance. No
modifications to this plan were required.

For the supervisory-level assessment, initial calculations indicated the need to examine
training records for approximately 70 supervisors/managers, based on a low expected
compliance rate and a one-sided 95 percent confidence interval with desired precision
of about 8 percent. A cluster sample design was planned, with 20 facilities selected and
training records reviewed for all supervisors and managers at the selected facilities.
The audit team determined, however, that a preponderance of facilities had only one
supervisory-level individual. Additionally, training records for some facilities were
merged at the finance number level and could not be readily separated. Therefore, the



                                                  20
                                        Restricted Information
Review of the Violence Prevention                                               LB-AR-00-010
 and Response Programs in the Arkansas District


resulting sample design had two strata: (I) facilities not grouped by finance number and
(II) facilities grouped by finance number. For stratum I, we selected 71 of 567 sites. For
stratum II, we selected 10 of the 16 finance number groups, which together included
67 facilities.

A further modification occurred during the course of the audit, as three contractor-only
facilities were identified (i.e., not subject to Postal Service supervisory training
requirements), requiring adjustment to the universe of facilities. The audit team verified
that these were the only three such facilities in the audit universe. Two of the facilities
are in stratum I; one facility is in stratum II (i.e., part of a finance number group).

Statistical Projections of the Sample Data

Craft Employee Training Projection (Little Rock Processing and Distribution
Center Only)

The sample data were analyzed based on the estimation of a population proportion for a
simple random sample as described in Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990. Results are presented for a one-sided confidence interval
as well as the point estimate.

Based on a projection of the sample results, we are 95 percent confident that at least
70.3 percent, or 986, of the 1,402 craft employees at the Little Rock Processing and
Distribution Center did not receive training in workplace violence awareness. The
unbiased point estimate is that 77 percent, or 1,080, of the craft employees at the Little
Rock Processing and Distribution Center did not meet the training criteria.

Supervisors and Managers Training Projection

The sample data were analyzed based on the estimation of a population proportion for a
stratified cluster sample as described in Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990. Results are presented for a one-sided confidence interval
as well as the point estimate. For the collection of supervisory attributes, the sum of the
point estimates will equal the total population. A sum of the upper bounds is
meaningless because any increases in one category would be offset by reductions in
another.

Based on a projection of the sample results, we are 95 percent confident that at least
23.7 percent, or 271, of the 1,144 Arkansas supervisors and managers received no
workplace violence awareness training. The unbiased point estimate is 29.4 percent, or
337 supervisors and managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 51.6 percent, or 591, of the 1,144 Arkansas supervisors and managers received
some training, ranging from 3 to 18 hours of subject-matter training, but not including



                                                  21
                                        Restricted Information
Review of the Violence Prevention                                           LB-AR-00-010
 and Response Programs in the Arkansas District


the required 12 hours. The unbiased point estimate is 46 percent, or 525 supervisors
and managers.

Based on a projection of the sample results, we are 95 percent confident that no more
than 30.1 percent, or 345, of the 1,144 Arkansas supervisors and managers met or
exceeded the twelve-hour subject-matter training criterion. The unbiased point estimate
is 24.6 percent, or 282 supervisors and managers.




                                                  22
                                        Restricted Information
Review of the Violence Prevention                                                     LB-AR-00-010
 and Response Programs in the Arkansas District


                        APPENDIX C
 SAMPLE OF CRISIS MANAGEMENT PLANS ON SITE AND PHYSICAL
    SECURITY REVIEWS CONDUCTED AT ARKANSAS DISTRICT
              FACILITIESFOR FY 1997 AND 1998

                                                                                         PHYSICAL
                                                                            CRISIS       SECURITY
                                                                         MANAGEMENT       REVIEW
ITEM                                                                        PLAN
                                                                  ZIP
 NO.     TYPE OF FACILITY               LOCATION                           ON SITE     FY 97    FY 98
                                                                 CODE
  1     Main Post Office        Adona                            72001      Yes        No        Yes
  2     Main Post Office        Alleene                          71820      Yes        No        Yes
  3     Main Post Office        Almyra                           72003      Yes        No        No
  4     Main Post Office        Arkansas City                    71630      No         No        No
  5     Main Post Office        Bald Knob                        72010      Yes        Yes       Yes
  6     Main Post Office        Bassett                          72313      Yes        No        No
  7     Main Post Office        Batesville                       75201      Yes        No        No
  8     Main Post Office        Bay                              72411      Yes        No        No
  9     Main Post Office        Bigelow                          72016      No         No        Yes
 10     Main Post Office        Biscoe                           72017      Yes        No        No
 11     Main Post Office        Board Camp                       71932      Yes        No        Yes
 12     Main Post Office        Boles                            72926      Yes        No        No
 13     Main Post Office        Bono                             72416      Yes        No        Yes
 14     Main Post Office        Caldwell                         72322      Yes        No        Yes
 15     Main Post Office        Cale                             71828      Yes        Yes       Yes
 16     Carrier Annex           Camden Carrier Annex             71701      Yes        No        Yes
 17     Main Post Office        Camp                             72520      Yes        No        No
 18     Main Post Office        Carlisle                         72024      Yes        No        No
 19     Main Post Office        Carthage                         71725      Yes        Yes       Yes
 20     Post Office             Cherokee Village CPO             72525      Yes        No        No
 21     Main Post Office        Compton                          72624      Yes        No        Yes
 22     Main Post Office        Cord                             72524      Yes        No        Yes
 23     Main Post Office        Damascus                         72039      Yes        Yes       Yes
 24     Main Post Office        Delaplaine                       72425      Yes        No        Yes
 25     Main Post Office        Desha                            72527      Yes        No        No
 26     Main Post Office        El Dorado                        71730      Yes        No        No
 27     Main Post Office        England                          72046      Yes        Yes       No
 28     Carrier Annex           Fayetteville Carrier Annex       72701      Yes        No        No
 29     Station                 Fort Smith Downtown              72901      Yes        No        No
 30     Main Post Office        Frenchman’s Bayou                72338      Yes        No        Yes
 31     Main Post Office        Gepp                             72538      Yes        No        Yes
 32     Main Post Office        Harrell                          71745      Yes        Yes       Yes
 33     Main Post Office        Hot Springs Nat’l Park           71913      Yes        No        No
 34     Main Post Office        Houston                          72070      No         No        No
 35     Main Post Office        Hughes                           72348      Yes        No        No
 36     Main Post Office        Huttig                           71747      Yes        Yes       Yes
 37     Main Post Office        Imoden                           72434      Yes        No        No
 38     Main Post Office        Ivan                             71748      Yes        No        Yes
 39     Main Post Office        Jacksonport                      72075      Yes        No        Yes
 40     Main Post Office        Jessieville                      71949      Yes        No        Yes



                                                  23
                                        Restricted Information
Review of the Violence Prevention                                                     LB-AR-00-010
 and Response Programs in the Arkansas District



                                                                                         PHYSICAL
                                                                            CRISIS       SECURITY
                                                                         MANAGEMENT       REVIEW
ITEM                                                                        PLAN
                                                                  ZIP
 NO.     TYPE OF FACILITY               LOCATION                           ON SITE     FY 97    FY 98
                                                                 CODE
 41     Station                 Jonesboro Nettleton              72402      Yes        No        No
 42     Main Post Office        Kensett                          72082      Yes        No        No
 43     Main Post Office        Kingsland                        71652      Yes        No        Yes
 44     Main Post Office        Kingston                         72742      Yes        No        No
 45     Main Post Office        Langley                          71952      Yes        No        No
 46     Main Post Office        Lepanto                          72354      Yes        No        No
 47     Main Post Office        Little Rock Downtown             72202      Yes        No        No
 48     Station                 Little Rock State Capitol        72201      Yes        No        No
 49     Main Post Office        Lynn                             72440      Yes        No        Yes
 50     Main Post Office        Magness                          72553      Yes        No        Yes
 51     Main Post Office        Mansfield                        72944      Yes        No        No
 52     Main Post Office        Marion                           72364      Yes        No        No
 53     Main Post Office        Marked Tree                      72365      Yes        Yes       Yes
 54     Main Post Office        Monroe                           72108      Yes        No        No
 55     Main Post Office        Moscow                           71659      Yes        No        Yes
 56     Main Post Office        Mount Pleasant                   72561      Yes        No        Yes
 57     Main Post Office        Mountain Home                    72653      Yes        No        No
 58     Main Post Office        Newport                          72112      Yes        Yes       Yes
 59     Main Post Office        Omaha                            72662      Yes        No        Yes
 60     Main Post Office        Onia                             72663      Yes        Yes       Yes
 61     Main Post Office        Ozone                            72854      Yes        No        No
 62     Main Post Office        Paris                            72855      Yes        Yes       Yes
 63     Main Post Office        Parkdale                         71661      Yes        No        No
 64     Main Post Office        Paron                            72122      Yes        No        Yes
 65     Main Post Office        Parthenon                        72666      Yes        No        No
 66     Main Post Office        Perryville                       72126      Yes        Yes       Yes
 67     Station                 Pine Bluff Oak Park              71603      Yes        No        No
 68     Main Post Office        Poplar Grove                     72374      Yes        No        Yes
 69     Main Post Office        Poughkeepsie                     72569      Yes        No        Yes
 70     Main Post Office        Prairie Grove                    72753      Yes        No        No
 71     Main Post Office        Ravenden                         72459      Yes        No        No
 72     Main Post Office        Rector                           72461      Yes        No        Yes
 73     Main Post Office        Reyno                            72462      Yes        No        Yes
 74     Main Post Office        Rosie                            72571      Yes        No        Yes
 75     Main Post Office        Scotland                         72141      Yes        Yes       Yes
 76     Main Post Office        Sherrill                         72152      Yes        No        Yes
 77     Main Post Office        Sidney                           72577      No         No        No
 78     Main Post Office        Siloam Springs                   72761      Yes        Yes       Yes
 79     Main Post Office        Sulphur Rock                     72579      Yes        Yes       Yes
 80     Main Post Office        Sweet Home                       72164      Yes        No        Yes
 81     Main Post Office        Tilly                            72679      Yes        No        Yes
 82     Main Post Office        Timbo                            72680      Yes        Yes       Yes
 83     Main Post Office        Trumann                          72472      Yes        Yes       Yes
 84     Main Post Office        Tuckerman                        72473      Yes        No        No
 85     Main Post Office        Turner                           72383      Yes        No        Yes



                                                  24
                                        Restricted Information
Review of the Violence Prevention                                                     LB-AR-00-010
 and Response Programs in the Arkansas District



                                                                                         PHYSICAL
                                                                            CRISIS       SECURITY
                                                                         MANAGEMENT       REVIEW
ITEM                                                                        PLAN
                                                                  ZIP
 NO.     TYPE OF FACILITY               LOCATION                           ON SITE     FY 97    FY 98
                                                                 CODE
 86     Main Post Office        Ulm                              72170      Yes        No        No
 87     Main Post Office        West Ridge                       72391      Yes        No        No
 88     Main Post Office        Wilson                           72395      No         No        Yes
 89     Main Post Office        Winslow                          72959      Yes        No        Yes
 90     Main Post Office        Woodson                          72180      Yes        Yes       Yes




                                                  25
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                                  26
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  27
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  28
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  29
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  30
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  31
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  32
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  33
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  34
                                        Restricted Information
Review of the Violence Prevention                                LB-AR-00-010
 and Response Programs in the Arkansas District




                                                  35
                                        Restricted Information
